            Office of Inspector General




September 30, 2006

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Biohazard Detection System Consumables
         (Report Number DA-AR-06-006)

This report presents the results of our self-initiated audit of the U.S. Postal
Service’s Biohazard Detection System (BDS) consumables (Project Number
05XU001DA000). Our objective was to determine if BDS consumable use,
specifically the items consumed during a test cycle, exceeded operational needs.

                                           Background
During 2002, the Postal Service approved a $279 million Decision Analysis
Report (DAR) to develop, purchase, and install BDS at some processing facilities
(Phase I). In 2004, the Postal Service approved a DAR modification request
for an additional $253 million to complete the installation at the remaining
facilities (Phase II). At the end of 2005, the Postal Service finished installation of
1,373 systems, including contingency units.

BDS is a special set of equipment that acts as an early warning system for the
detection of biohazards within the Postal Service processing and distribution
center (P&DC) environment. The main purpose of the BDS is to reduce the
threat to Postal Service personnel and the general public of biohazardous
materials (exclusively, anthrax) sent through the mail.

The BDS units collect air samples from the Automated Facer Canceller System
(AFCS) during mail processing operations and automatically perform periodic
tests on the samples. This test cycle occurs every hour and can continually test
unattended for a full 10 hours. The BDS is attached to the front end of the AFCS
and must be “on” for the mail processing equipment to operate.1 This feature
helps ensure that processed mail is tested for biohazards before the mailpiece
leaves the facility.




1
 An AFCS unit includes two components – a culler at the front of operations attached to a canceller. BDS is
only necessary during the culling operation.
Biohazard Detection System Consumables                                                             DA-AR-06-006



During each test cycle, BDS consumes one cartridge and buffer fluids. As
depicted in Illustration 1, these items represent the most significant variable costs
of a test. According to the DAR, consumables costs are estimated at
$526 million over the BDS’ 5-year life.

Illustration 1. Diagram of Biohazard Detection System




                                          Redacted




The Vice President, Engineering, is responsible for fielding BDS equipment,
establishing maintenance policies, and monitoring consumable use. The Vice
President, Network Operations, is responsible for managing AFCS and BDS
operations.

                       Objective, Scope, and Methodology
Our objective was to determine if BDS consumable use, specifically the items
consumed during a test cycle, exceeded AFCS operational needs.2 Our review
was limited to Phase I and Phase II BDS deployments, scheduled through
December 2005.

To accomplish our objectives, we compared fiscal year (FY) 2005 BDS test data
to AFCS run times to determine consumable over-usage for each machine in our
sample. Specifically, we compared the actual BDS tests per day to required
tests per day based on AFCS runtimes recorded in end of run reports. In

2
 Our original scope included a review of contracted preventive maintenance. We plan to review preventive
maintenance in a subsequent audit.

                                                    2
Biohazard Detection System Consumables                                                                  DA-AR-06-006



selecting a sample for review, we identified the FY 2005 universe of machine test
days (175,345) from BDS system data. We randomly selected 80 machine test
days per quarter for a total of 320 samples. We computed an average over-
testing for each BDS machine per day. See Appendix B for sample information.

We also conducted a follow-up survey relating to 97 randomly selected samples.
We distributed the survey to in-plant support managers and supervisors of
maintenance operations at 63 BDS sites. The survey was the basis for
identifying best practices and contributors to over-testing.

We conducted this audit from November 2005 through September 2006 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under
the circumstances. We obtained data from the Postal Service End of Run (EOR)
reports and BDS system data the vendor provided. We did not test the validity of
controls over these systems. However, we conducted a preliminary assessment
of data reliability and concluded the data used was sufficiently reliable to answer
the audit objectives. We discussed our observations and conclusions with
management officials and included their comments where appropriate.

                                     Prior Audit Coverage
The U.S. Postal Service Office of Inspector General (OIG) previously issued a
Management Advisory, Biohazard Detection System (Report Number DA-MA-02-
001, dated September 24, 2002). We recommended the Postal Service continue
to search for alternative technologies, conduct a detailed risk assessment, and
conduct testing to ensure they can detect several designated biohazards.3
Management generally agreed with our recommendations and indicated that,
even though the BDS is not real-time, it is the only developed system that is
reliable and currently available.

                                           Audit Results
The Postal Service’s BDS consumable usage exceeded AFCS operational
needs. Postal Service policy requires one BDS test for every hour of AFCS
operation. However, we found instances where BDS testing occurs continuously
even when the AFCS is not operating. This occurred primarily because there
was no start and shutdown synchronization between BDS and AFCS operations.
As a result of BDS over-testing, by the time a technological solution is
implemented the Postal Service will have incurred unrecoverable costs.
Reemphasizing already established manual procedures for efficient consumable
use will allow some cost avoidance in the short-term. In the long-term, the Postal
Service could avoid consumable costs over the remaining BDS program life once

3
  The scope of this audit included the BDS being piloted by the Postal Service at the time of the audit. Thus,
the audit focused on preproduction testing of the system.


                                                      3
Biohazard Detection System Consumables                                         DA-AR-06-006



they implement a technological solution. The overall monetary impact of BDS
over-testing is $79,739,137 which we will report in our Semiannual Report to
Congress.

Sample Results Indicate Biohazard Detection System Over-Testing

A statistical sample of 320 AFCS machine days indicated that, on average,
2.09 BDS tests per machine per day were unnecessary when compared to AFCS
runtimes. Sample results showed the delta for our sample ranged from -10 tests
(meaning the BDS conducted 10 fewer tests than would be required based on
AFCS runtime) to +11 tests (or 11 more tests than required). To determine
causes and best practices, we grouped the delta ranges in the sample into the
following three strata:

       Stratum 1 (delta of -10 to -1[shortfall]): In this stratum, AFCS operations
       exceeded BDS tests. Survey results from 100 percent of sample sites in
       this category indicated this was not the result of under-testing, but was
       rather a result of appropriately operating the AFCS canceller function
       without BDS.

       Stratum 2 (delta of 0 to 1 [excess]): In this stratum, AFCS operations
       closely mirrored BDS tests. Therefore we identified the “best practices”
       these sites implemented to achieve this level of efficiency.

       Stratum 3 (delta of 2 to 11 [excess]): In this stratum, BDS tests exceeded
       AFCS operations, indicating over-testing.

As shown in the table below, our sample analysis of machine days revealed that
BDS tests occurred more than necessary over half of the time.

                     Table 1. BDS Sample Analysis Results

                                      Number of
               Stratum               Occurrences            Percent
                  1                      17                    5
                  2                      141                  44
                  3                      162                  51
                Totals                   320                  100

Causes of Biohazard Detection System Over-Testing

Excessive testing occurred because BDS operations are not fully synchronized
with AFCS operations. Specifically, the interface between the two systems
controls AFCS starts only and was not designed to coordinate both starts and
stops between the two systems. This coordination is necessary to optimize
efficient use of consumables.

                                          4
Biohazard Detection System Consumables                                                   DA-AR-06-006




Also, current guidelines4 require coordination between maintenance and
operations for efficient consumable use. Postal Service maintenance employees
operate the BDS, while mail handler employees operate the AFCS machines.
Because the BDS and AFCS operations are supervised and operated
independently, close coordination between these two functions is essential to
ensure that the BDS does not operate unnecessarily. Often this coordination
does not occur, so BDS sites continue to perform tests and use consumables
while the AFCS is not processing mail.

Survey results of BDS and AFCS managers indicated various reasons for
excessive BDS testing. Specifically:

       •   31 percent of Stratum 3 respondents indicated they did not use mail
           arrival profile tools. Using mail arrival profiles to schedule BDS
           operations was identified as a best practice during our audit survey. In
           some cases, at the start of the tour all BDS systems were turned on
           regardless of AFCS mail volume. These cases called for limited BDS
           operations.

       •   55 percent of Stratum 3 indicated they leave BDS on when the AFCS is
           operating in the canceller mode.

       •   79 percent of Stratum 3 indicated BDS operates when AFCS is idle.

       •   84 percent of Stratum 3 indicated that BDS continues to run during AFCS
           maintenance.

       •   Only 48 percent of BDS sites were aware of maintenance directives
           outlining ways to improve the efficiency of BDS and AFCS operations.

Additionally, while 89 percent of respondents acknowledged the feasibility of
having maintenance personnel shut down BDS units when the AFCS is not in
operation, many respondents recommended the development of a technological
solution.

Impact of Technological Solution

At the start of the audit, Engineering had efforts underway to enhance BDS
software and overhaul the AFCS. Neither effort addressed the issues highlighted
in this report. During the course of the audit, we discussed opportunities for a
technological solution to start and stop BDS in conjunction with the AFCS,
thereby eliminating manual coordination between operations and maintenance.
Proposals included software and hardware modifications management could

4
    BDS Consumables Management, Maintenance Management Order MMO-064-04, December 28, 2004.

                                                5
Biohazard Detection System Consumables                                                     DA-AR-06-006



readily incorporate into current efforts. The expected implementation date for
the proposed modifications is the end of FY 2007, at an estimated cost of
$10.5 million.

BDS program management monitors consumable usage by comparing actual
usage to DAR expectations rather than to AFCS operational needs. From
program inception through April 2006, the average daily consumable usage of
6.9 consumables per machine per day approximates the DAR forecasted usage
of 6 per machine per day. Also, over the past 2 years, BDS consumable usage
has remained fairly constant except during the holiday period. During this time,
usage increased dramatically. However, as discussed earlier, not all the tests
were necessary as the BDS was running at times when the AFCS was not
processing mail. Implementation of a technological solution would enable the
Postal Service to reduce BDS tests and consumable usage by 2.09 per machine
per day. (See the chart below.)


                           Chart 1. BDS Consumable Usage

                     9.0

                     8.0

                     7.0
    # of BDS Tests




                     6.0
                                BDS tests in this area are avoidable.
                     5.0

                     4.0

                     3.0

                     2.0

                     1.0

                     0.0
                      M 5
                              5




                      M 6
                              6
                              5
                      Fe 5




                            05

                      Au 5




                      Fe 6
                      De 4
                            04




                            05




                      De 5
                            05
                      No 4




                      M 5




                      No 5




                             6
                            05
                            0
                           -0




                            0
                           -0
                           -0



                          l-0
                            0




                            0
                            0




                            0




                         r-0




                            0




                            0




                         r-0
                         b-




                         b-
                         v-

                         c-




                         p-



                         v-

                         c-
                         n-




                         n-




                         n-
                        g-
                        ct-




                        ct-
                        ar




                        ar
                       ay



                       Ju
                      Ap




                      Ap
                      Ja




                      Ju




                      Ja
                      Se
                     O




                      O




                               Actual Daily MachineMonth
                                                   Average Per Month
                               Adjusted Daily Average (Reduced 2.09 per machine per day)
                               Expected Daily Machine Average per DAR



As a result of BDS over-testing, by the time a technological solution is
implemented the Postal Service will have incurred $45,916,184 in unrecoverable
costs. Reemphasizing already established manual procedures for efficient
consumable use will allow some cost avoidance in the short-term. In the long-
term, the Postal Service could avoid $33,822,953 in consumable costs over the

                                                6
Biohazard Detection System Consumables                                         DA-AR-06-006



remaining BDS program life once they implement a technological solution. See
Appendix A for details.

Recommendations

We recommend the Vice President, Engineering:

        1. Procure and implement a technological solution to ensure Automated
           Facer Canceller System and Biohazard Detection System operations
           are synchronized for starts and stops.

        2. Reemphasize to the Vice President, Network Operations, the need to
           follow established manual processes until Engineering implements a
           technological solution.

Management’s Comments

Management agreed with the two recommendations but did not agree with the
finding and questioned the monetary impact. Management emphasized BDS
was implemented in response to a national emergency in October 2001 and the
system was delivered ahead of schedule with the safety of employees and
customers as a top priority. Since then, management has explored opportunities
to increase the efficiency of the BDS and reduce consumable costs.

While management agreed that a start and stop solution will reduce cartridge
use, they stated that the synchronization approach suggested in the audit did not
factor in actual field conditions. Therefore, management suggested the savings
opportunity within the 5-year BDS life cycle noted in the report would not be fully
captured. They further suggested our classification of reported monetary
opportunities should be revised after factoring in actual field conditions.

Management further noted that they had already identified a technological
solution prior to the beginning of the audit. They indicated that although they
developed an interface specification in December 2003, there was insufficient
time to incorporate it into the production units.

With regards to recommendation 1, management agreed and noted they also
planned additional technological enhancements which, along with increased
operational vigilance, would minimize cartridge use. Management estimated
their planned upgrades would reduce consumable cost by $22 million annually.
They further stated that planned supply chain management initiatives would save
approximately $50 million over the next 5 years.




                                         7
Biohazard Detection System Consumables                                         DA-AR-06-006



Management also agreed with recommendation 2 and planned to develop and
issue joint service talks to BDS field offices reemphasizing the importance of, and
need to follow, established guidelines to reduce consumable usage.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

We clearly acknowledge that management was highly attentive to the safety of
employees and customers in response to a national threat and that BDS systems
were deployed expeditiously. However, the intent of this audit was not to assess
the overall BDS program, but to focus on just a part of the program –
consumable needs.

The synchronization solution discussed in the audit did consider field conditions.
We surveyed field in-plant support managers and maintenance operations
supervisors at 63 field BDS sites specifically to identify best practices and
contributors to over-testing. Those results are noted in the report. Management
did not present specific information from a field site or machine level to indicate
how their reference to field conditions would impact our calculations, nor did they
suggest an alternate calculation methodology. Therefore, we continue to believe
our reported monetary impacts, which are supported by statistically sound
sampling designs and projections, are fair and reasonable.

Management stated that they had previously identified the opportunity to
synchronize the BDS start and stop in conjunction with the AFCS. However, they
did not share this information with OIG during the course of the audit, nor present
evidence to support this position during the exit conference or subsequent
meetings.

While management did not agree with our finding, approach or classification of
the monetary impact, they did agree with the recommendations. Management’s
actions, taken or planned, are responsive to the issues identified in this report.
The OIG does not plan to pursue management’s disagreement through the
formal audit resolution process.

The OIG considers recommendations 1 and 2 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides
written confirmation the recommendations can be closed.




                                         8
Biohazard Detection System Consumables                                      DA-AR-06-006



We appreciate the cooperation and courtesies provided by your staff during our
review. If you have any questions or need additional information, please contact
Miguel A. Castillo, Director, Engineering, or me at (703) 248-2100.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Tony Pajunas
    Henry Pankey
    Steven R. Phelps




                                         9
Biohazard Detection System Consumables                                                             DA-AR-06-006




                                APPENDIX A. BIOHAZARD DETECTION SYSTEM
                         (Unrecoverable Questioned Costs and Funds Put To Better Use)

                                               Average
                                             Number of
                                            Machines in      Machine     Number                                                             Estimated
                      Average Excessive        Use per    Processing          of   Consumable                                         Investment Cost        Net Present
                      Tests per Machine     Processing      Days per   Excessive   Unit Cost per     Escalation   Cost of Excessive   of Technological   Value Excessive
 Year                           per Day            Day          Year       Tests       BDS Test         Factor           BDS Tests            Solution        BDS Tests
 FY 2005                                                                 366,520         $26.74           1.000          $9,800,751                           $9,800,751
 FY 2006                             2.09          935          312      609,695         $26.74           1.000         $16,303,239                          $16,303,239
 FY 2007                             2.09          946          312      616,868         $26.74           1.018         $16,791,953                          $15,954,349
 Period Ending
 December 2007                       2.09          946           78      154,217         $26.74          1.036           $4,273,552                           $3,857,845
 Sub-Total Unrecoverable Questioned Costs                                                                              $47,169,495                           $45,916,184


 FY 2008 (January -
 September)                          2.09          946          234      462,651         $26.74          1.036         $12,820,656       ($10,456,804)        $2,133,910
 FY 2009                             2.09          946          312      616,868         $26.74          1.055         $17,401,903                           $14,925,553
 FY 2010                             2.09          946          312      616,868         $26.74          1.074         $17,715,138                           $14,436,307
 FY 2011 (2 Months)                  2.09          946           52      102,811         $26.74          1.093           $3,005,668                           $2,327,183
 Sub-Total Funds Put to Better Use                                                                                     $50,943,365                           $33,822,953


 Unnecessary Consumable Use (Unrecoverable Questioned Costs + Funds Put to Better Use)                                 $98,112,860                         $79,739,137



Unrecoverable Questioned Costs – A cost that is unnecessary, unreasonable, or unsupported; or that is an alleged violation of law, regulation,
or contract and is not recoverable.

Funds Put to Better Use – Funds that can be used more efficiently by implementing recommended actions.




                                                                           10
Biohazard Detection System Consumables                                       DA-AR-06-006



                    APPENDIX A. Continued
  (Unrecoverable Questioned Costs and Funds Put To Better Use)
   NOTES

   •   Questioned Costs represent the cost of unnecessary consumables incurred
       before the proposed implementation of the technological solution. We
       calculated this by multiplying the total number of excessive BDS tests by the
       consumable unit cost and escalation factor. Based on contract information,
       we determined that the consumable unit (variable) cost, excluding program
       administration, is $26.74.

   •   Funds Put to Better Use is the cost of consumables incurred after the
       proposed implementation of the technological solution. We calculated this by
       multiplying the number of excessive BDS tests per machine day by the
       consumable unit (variable) cost escalated and discounted over the program
       life net of the $10.5 million cost of the technological solution.

   •   Full deployment of BDS machines was for 1,373 systems, including
       contingency units. Deployment completed ahead of schedule (December 2,
       2005). The average number of machines post deployment through May 17,
       2006 is 946. The weighted average of machine in use prior to full
       deployment was 935. We used these values for our calculations.

   •   We calculated the net present value using the discount rate of 5.25 percent
       over the program life of 5 years.

   •   The yearly escalation factor is 1.8 percent based on the Postal Service’s
       Decision Analysis Factors, effective May 2006.

   •   The estimated deployment period for the suggested technological solution is
       July 2007 through August 2008. Midpoint date used (January 2008) to
       distinguish funds put to better use assumes even deployment schedule.




                                         11
Biohazard Detection System Consumables                                                            DA-AR-06-006




    APPENDIX B. STATISTICAL SAMPLING AND PROJECTIONS
         (Biohazard Detection System Consumables)

Purpose of the Sampling - The objective of this audit was to determine whether
the BDS consumable use exceeded requirements for AFCS operations. In
support of this objective, the audit team employed a stratified random sample to
allow projection of the number of excess BDS cartridges used.

Definition of the Audit Universe - The audit universe consisted of 175,345
machine-days5 during FY 2005. The audit universe was obtained from BDS
system data provided by the vendor.

Sample Design and Modifications - We chose a sample design stratified by
fiscal year quarter, because we wanted to cover the potential for differences
among the quarters with regard to cartridge overuse. For example, we thought it
possible that periods of very high volume might have less overuse of cartridges
because longer AFCS run times could result in BDS on/off times more closely
matching those of AFCS.

We calculated the sample size based on data obtained from a preliminary
sample of 47 randomly-selected combinations of sites, days in FY 2005, and
machines (ACFS). We found an achieved precision of 37 percent for the
preliminary sample results. From this preliminary result we concluded the
coefficient of variation of the data (CVdata) for the number of excess cartridges in
the preliminary sample was 129 percent. Using that observed CVdata, we
estimated that a total sample size of 320 would allow us to achieve relative
precision of +/- 14 percent. We allocated the sample to 80 machine-day
combinations per quarter.

Statistical Projections of the Sample Data - For projection of the sample
results, we applied the formulae for a stratified random sample from Chapter 3 of
Model Assisted Survey Sampling, Särndal, Swensson, and Wretman, 1991.

Based on projection of the sample results, we estimate that a total of 366,520
cartridges were used in excess of need in FY 2005. Because there was less
variability in the data than anticipated, we achieved +/- 11 percent relative
precision. The 95 percent confidence interval is 325,626 to 407,415 total excess
cartridges. From the total of 366,520 excess cartridges, we calculate that the
average cartridge overuse rate was 2.09 cartridges per AFCS per day.




5
 A machine-day is the combination of active AFCS machines (1,274 in FY 2005) and days of operation for
each machine (varied by machine). Not all machines operated every day in FY 2005.


                                                  12
Biohazard Detection System Consumables           DA-AR-06-006



             APPENDIX C. MANAGEMENT’S COMMENTS




                                         13
Biohazard Detection System Consumables        DA-AR-06-006




                                         14
